<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                         ORGANIZATIONAL MEETING
=======================================================================

                                MEETING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MEETING HELD
                            JANUARY 26, 2011
                               __________


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 





            Small Business Committee Document Number 111-001
Available via the GPO Website: http://www.access.gpo.gov/congress/house


                              __________



                        U.S. GOVERNMENT PRINTING OFFICE
65-194 PDF                    WASHINGTON: 2009
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3156415e715244424559545d411f525e5c1f">[email&#160;protected]</a>  











                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                       ROSCOE BARTLETT, Maryland
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                      CHUCK FLEISCHMANN, Tennessee
                         JEFF LANDRY, Louisiana
                   JAIME HERRERA BEUTLER, Washington
                          ALLEN WEST, Florida
                     RENEE ELLMERS, North Carolina
                          JOE WALSH, Illinois
                       LOU BARLETTA, Pennsylvania
                        RICHARD HANNA, New York
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        MARK CRITZ, Pennsylvania
                      JASON ALTMIRE, Pennsylvania
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                     DAVID CICILLINE, Rhode Island
                       CEDRIC RICHMOND, Louisiana
                         GARY PETERS, Michigan
                          BILL OWENS, New York
                      BILL KEATING, Massachusetts

                      Lori Salley, Staff Director
                       Paul Sass, Staff Director
                     Barry Pineles, General Counsel
                 Michael Day, Minority Staff Directory


                            C O N T E N T S

                              ----------                              
Opening Statements:
    Graves, Hon. Sam.............................................     1
    Velazquez, Hon. Nydia M......................................     2

                                APPENDIX

Committee Oversight Plan for the 112th Congress..................    21
Committee Rules and Procedures for the 112th Congress............     7


                         ORGANIZATIONAL MEETING

                              ----------                              


                      WEDNESDAY, JANUARY 26, 2011

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1 p.m., in Room 
2360, Rayburn House Office. Hon. Sam Graves [chairman of the 
Committee] presiding.
    Present: Representatives Graves, Bartlett, Chabot, Coffman, 
Ellmers, Herrera Beutler, Fleischmann, Tipton, Walsh, West, 
Velazquez, Schrader, Critz, Altmire, Chu, Cicilline, and 
Peters.
    Chairman Graves. We will go ahead and get started. I will 
call the Small Business Committee organization meeting to 
order. I want to welcome all the returning Members and new 
Members of the Committee. I know they are excited to dive into 
this Committee and get to work, which is exactly what we are 
going to do.
    In the essence of time because we have got a vote coming up 
right away, I will introduce the eight new Republican Members. 
We have got Congresswoman Renee Ellmers, who was a nurse from 
North Carolina before her election. Congresswoman Jaime Herrera 
Beutler, who is returning to Washington, D.C., after having 
once been an aide to Congresswoman McMorris Rodgers and 
represents the 3rd District of Washington. Congressman Chuck 
Fleischmann practiced law in Tennessee prior to his election. 
Congressman Jeff Landry successfully ran for office from 
Louisiana while operating a small oil services business. 
Congressman Mick Mulvaney, also an attorney, served in the 
South Carolina State Legislature. Congressman Scott Tipton ran 
a small business and served in the Colorado Legislature before 
winning his election. Congressman Joe Walsh helped small 
businesses raise capital in Illinois and brings experience, a 
lot of experience, to this Committee. And Congressman Allen 
West served his country in the military and now serves his 
Florida constituents in Congress.
    I would also like to welcome those returning Members back: 
Mr. Bartlett from Maryland, Mr. Chabot from Ohio, Mr. Coffman 
from Colorado, and Mr. King from Iowa.
    And now I will yield to Ranking Member Velazquez to 
introduce her Members.
    Ms. Velazquez. I, too, want to welcome the returning 
Members and new Members. We have six new Members on our side: 
Representative Judy Chu of California. This is her second term 
in Congress and first with the Committee. She will be the 
Ranking Member for the Subcommittee on Contracting and Work 
Force. Representative David Cicilline of Rhode Island. This is 
his first term in Congress and he will serve on the Committee 
on Foreign Affairs in addition to this Committee. 
Representative Richmond of Louisiana. This is his first term 
and he will be the ranking on the Subcommittee on Health Care 
and Technology. Representative Gary Peters of Michigan. This is 
his second term in Congress and first with the Committee. And 
Representative Bill Owens of New York. He was first selected in 
2009 to fill the seat vacated by John McHugh. And we have 
Representative Bill Keating of Massachusetts. This is his first 
term in office.
    Returning Members: Mr. Schrader of Oregon. This is his 
second term. Mark Critz of Pennsylvania. He was first elected 
to Congress in early 2010 to fill the seat vacated after 
Congressman Murtha passed away. Representative Jason Altmire of 
Pennsylvania. This is his third term in Congress and on the 
Committee. And Representative Yvette Clarke of New York, also 
in her third term in office and with the Committee.
    Thank you.
    Chairman Graves. Thank you very much. As chairman of the 
Committee I definitely want to set the right tone and I would 
like to retain the tradition of bipartisanship on this 
Committee that stretches all the way back to another 
Missourian, former Congressman Chairman Jim Talent. Ranking 
Member Velazquez continued the efforts obviously in the 110th 
and 111th Congress, which I appreciated very much. And although 
we have differences on policy, I strongly believe that there 
are many issues which we have found and will continue to find 
common ground on that is going to help small businesses by 
eliminating unnecessary programs and regulations and improving 
the efficiency of the Small Business Administration when it 
comes to dealing with entrepreneurs.
    I believe that the rules package and oversight plan under 
consideration today is going to lay the groundwork for finding 
those areas that we have in common while it maintains the 
highest levels of civility when we discuss our differences.
    And I will now yield to Ranking Member Velazquez for her 
opening statement.
    Ms. Velazquez. Thank you, Mr. Chairman. I want to, as I 
said before, welcome all the returning Members and the new 
Members. And this should be a very busy two years, and we look 
forward to continuing our work on behalf of our nation's small 
businesses. And I welcome your comments about working in a 
bipartisan way. As I have always stated in the past, there is 
no Republican or Democratic approach to deal with the many 
issues that we need to tackle in terms of small businesses in 
our country. It has been said in the past both Republicans and 
Democrats want and need small firms to succeed and create jobs 
in our communities.
    Mr. Chairman, regarding our Committee's rules, they are not 
only a vital institutional requirement, but they also set clear 
parameters for how we will operate. More importantly, they 
contain protections to ensure that all points of views are 
considered. The rules foster an environment that facilitates 
respectful dialogue, irrespective of ideological beliefs. We 
have Members from all across the country representing rural and 
urban areas, North and South, East and West. Their viewpoints 
inform our hearings and strengthen the legislation we produce.
    As a result of these procedures, transparency is enhanced 
and information is made more readily available. Doing so 
enables Members, as well as the public, to follow and 
participate in congressional proceedings more fully. Increasing 
the quality and quantity of this information is essential as it 
demystifies the work we do on Capitol Hill, permitting us to 
better connect with those we serve. A committee that is run 
openly and with a sense of comity is a committee that works and 
can best achieve its objective. It is my hope that the rules we 
consider today will make this happen. Through their adoption we 
will start the 112th Congress in a way that permits us to work 
across the aisle and to solve the many issues facing small 
businesses in America.
    And I yield back to the Chairman. Thank you.
    Chairman Graves. Thank you. And I want to say outright to 
you that I want to thank the minority and majority staffs for 
their hard work and cooperation putting together this rules 
package. I will highlight some of the changes real quick which 
I think are going to provide a lot more transparency.
    First of all, in an effort to keep all the Members 
informed, materials for markups and hearings are going to be 
distributed as soon as possible. In fact, even sooner than what 
the House rules require.
    Second, Members, I know everybody is busy with a lot of 
things out there, so the length of hearings are going to be 
kept as short as possible by limiting the number of total 
nongovernment witnesses.
    And third, the public will be continually informed on 
Committee activities through live streaming of Committee 
hearings and posting of material distributed to Members and 
their votes during markup on the Committee's website. All of 
these efforts, I think, are going to ensure greater efficiency 
and operation of the Committee and it is going to allow us to 
focus on the critical policy needs of small businesses.
    In addition to efficiency and transparency of Committee 
operations, I believe the rules package protects the rights of 
the minority by allowing it to control its budget and ensuring 
that subpoenas in most instances are going to be considered by 
the full Committee prior to issuance.
    So I now recognize Ranking Member Velazquez for her 
remarks, if she has any, on the rule package.
    Ms. Velazquez. I made my remarks.
    Chairman Graves. Okay. So are there any other Members that 
have any comments on the rules package?
    And if not, we will just move straight forward.
    I would now move that the Committee move to consideration 
of the rules package, and The Clerk can read them.
    Ms. Christian. Rules and Procedures Adopted by the 
Committee on Small Business, United States House of 
Representatives, 112th Congress.
    Chairman Graves. Okay. I would ask unanimous consent that 
the rules package be considered as read and open for amendment 
in its entirety. Does any Member seek recognition for the 
purpose of offering an amendment?
    Seeing no amendments to the question on adopting the rules, 
all those in favor say aye.
    [Chorus of ayes]
    Chairman Graves. All opposed, no? It is the opinion of the 
Chair that the ayes have it. The Rules of the Small Business 
Committee of the 112th Congress are now adopted.
    Today's second order of business is to consider the 
Committee's Oversight Plan. This plan represents the agenda for 
the Committee during the 112th Congress. I want to thank 
Ranking Member Velazquez for her input into this Oversight 
Plan. During my tenure on this Committee I have recognized 
significant management issues at the Small Business 
Administration, discovered that small businesses obviously must 
climb substantial barriers to enter Federal contracting 
markets. We determined that Federal agencies ignore the impact 
of their regulations on entrepreneurs in many cases. I believe 
that the Oversight Plan reflects those concerns and sets an 
appropriately aggressive agenda for the Committee to develop 
policies that will benefit small businesses and help the 
economy create much needed jobs.
    With that, I would yield to Ranking Member Velazquez for 
any comments she has on the Oversight Plan.
    Ms. Velazquez. Thank you, Mr. Chairman.
    The Oversight Plan sets forth a policy framework for this 
Congress and the Chairman is to be commended on producing a 
thoughtful document. While our broad jurisdiction provides the 
basis to look into just about any policy matter affecting small 
businesses, I am heartened by its emphasis on job creation. 
This is a very appropriate use of our Committee's time and 
resources. It calls for the robust oversight of the Small 
Business Administration and other Federal small business 
initiatives, a long tradition that this Committee takes 
seriously. A recent examination of the Small Business Disaster 
and Contracting Program has produced positive changes and are 
but two examples of the benefits that congressional oversight 
can produce.
    Finally, the Oversight Plan delineates several programs for 
review and possible termination. Our past work has revealed 
that there are agency programs that lack a clear focus and may 
be duplicative. It has always been a part of our core 
responsibility to carefully examine such instances and consider 
alternative options as well as their elimination. This is 
central to why I have always advocated for the two-year 
authorization period for the Small Business Administration and 
its programs.
    Federal agencies must justify the programs they operate 
regularly and Congress should be seeking feedback from 
stakeholders about what is working and what is not. 
Collaborating with my colleagues on these matters and making 
the SBA more efficient in its use of taxpayer dollars is a top 
priority. Congress needs a clear agenda for assisting small 
firms, and it is paramount that we start addressing these 
issues as soon as possible. By doing so we have the potential 
to truly help create new jobs and move the economy forward.
    With that, I urge Members to approve this Oversight Plan.
    Chairman Graves. In the essence of time, because we have 
votes at 1:15, I will move directly to the consideration of the 
Oversight Plan. Will The Clerk please read the title?
    Ms. Christian. Oversight Plan of the Committee on Small 
Business for the 112th Congress.
    Chairman Graves. I would ask unanimous consent that the 
Oversight Plan be considered as read and open for amendment in 
its entirety. Does any Member seek recognition for the purpose 
of offering an amendment?
    Seeing no amendments the question is on adopting the 
oversight package. All of those in favor say aye.
    [Chorus of ayes]
    Chairman Graves. All opposed say no.
    It is the opinion of the chair that the ayes have it. The 
Oversight Plan for the Small Business Committee of the 112th 
Congress is adopted.
    With that real quick, and since they called the roll, I do 
want to thank Ranking Member Velazquez for the way the 
Committee worked. And for the new Members, this Committee does 
a real good job of working together in the best interest of 
small business. And it has always been that way and I want it 
to continue that way.
    Chairwoman Velazquez had a gavel that she used which I 
thought was pretty neat because it was part of her native 
Puerto Rico. It was special wood that came from there and I 
told her if she was smart she would get a Missouri walnut 
gavel, which I have for her now, which I am going to give to 
her. But this gavel, my great, great grandparents built a house 
on one of our farms in 1865, and the wood out of that house, 
when my brother took that over, we kept a bunch of it and this 
is part of the stair railing that went down to the basement in 
that house. And my son turned this gavel, made it. This is real 
Missouri walnut and it came out of my family's home.
    We could not have two districts that are completely 
different. I drove through the Ranking Member's district here 
not too long ago. You did not know that. And I think the only 
thing that we have in common is she represents the only tri-
borough district in the country and I have the town of Westboro 
in my district. And I think that is the only thing that we have 
in common between us.
    But with that, this is a Missouri walnut gavel and I wanted 
to give that to you.
    Ms. Velazquez. Thank you so much. Thank you. Thank you.
    You might be looking for trouble.
    Chairman Graves. That's right.
    Ms. Velazquez. Thank you very much. Very kind. And for the 
new Members who were not here when we made our opening remarks, 
let me just echo the words and comments made by our Chairman. 
Here we care about providing the tools and making sure that we 
have a climate that is conducive for small businesses to do 
what they do best and that is to create jobs. We work in a 
bipartisan way. We have done it in the past and I look forward 
to a collaborative and productive two years. That will not mean 
that we do not have our differences.
    Chairman Graves. That is right.
    Ms. Velazquez. And they will be clearly stated. But as much 
as we can, we will address those issues in a bipartisan 
climate.
    Chairman Graves. I want to thank everybody for coming. I 
look forward to working with you. So this meeting of the Small 
Business Committee is adjourned.
    [Whereupon, at 1:14 p.m., the Committee was adjourned.]
    [GRAPHICS NOT IN TIFF FORMAT] 
    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
